TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Expansion of Controls Over Refundable
                    Credits Could Help Reduce the Billions of
                       Dollars of Improperly Paid Claims



                                        September 7, 2012

                              Reference Number: 2012-40-105




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


EXPANSION OF CONTROLS OVER                              after being disallowed the previous year. The
REFUNDABLE CREDITS COULD HELP                           IRS could have saved more than $108 million by
REDUCE THE BILLIONS OF DOLLARS                          reviewing claims made by taxpayers who were
OF IMPROPERLY PAID CLAIMS                               previously disallowed the credit.
                                                        In addition, TIGTA found that when the IRS
                                                        freezes and reviews a questionable Earned
Highlights                                              Income Tax Credit (EITC) but releases a related
                                                        ACTC, the ACTC will later be disallowed
Final Report issued on                                  67 percent of the time, and the IRS will have to
September 7, 2012                                       employ post-refund collection methods to
                                                        recover the credits. The IRS could have
Highlights of Reference Number: 2012-40-105             prevented approximately $419 million in
to the Internal Revenue Service Deputy                  erroneous ACTC refunds from being released
Commissioner for Services and Enforcement.              had it reviewed the ACTC at the same time the
                                                        EITC was being reviewed.
IMPACT ON TAXPAYERS
                                                        WHAT TIGTA RECOMMENDED
Refundable credits, unlike other tax credits, not
only have the potential to reduce a taxpayer’s          TIGTA recommended that the IRS implement
tax liability to zero, but also allow the taxpayer to   additional controls to identify and stop erroneous
receive a cash payment of any remaining credit          claims for refundable credits before refunds are
amount. This makes refundable tax credits               issued, including:
more susceptible to fraud. Without proper
controls, billions of taxpayer dollars are                 Implementing an account indicator to identify
vulnerable to erroneous claims and fraudulent               taxpayers who claim erroneous refundable
tax schemes.                                                credits. Taxpayers with such an indicator
                                                            should be required to provide documentation
WHY TIGTA DID THE AUDIT                                     before their claims for refundable credits are
                                                            processed and should be considered for
Erroneous credits discovered after refunds are              pre-refund examinations of claims for all
released may require more costly enforcement                refundable credits. Such an indicator should
actions, and the likelihood of collection                   be applied for a specified time period.
diminishes over time.
                                                           Freezing and verifying claims for the ACTC
This audit was initiated to determine the                   on all returns for which the EITC is frozen.
effectiveness of the IRS’s efforts to recover
refundable credits disallowed during post-refund           Working with the Department of the
examinations and consider options the IRS                   Treasury’s Office of Tax Policy to seek
could implement to decrease the issuance of                 legislation to expand the EITC due diligence
erroneous refundable credits.                               requirements to include the ACTC.
WHAT TIGTA FOUND                                        IRS management agreed with TIGTA’s
                                                        recommendations and plans to take appropriate
During Tax Years 2006 through 2009, taxpayers           corrective actions. Rather than implementing an
claimed almost $470 billion in refundable credits.      account indicator to identify taxpayers who claim
Due to post-refund examinations, taxpayers              erroneous refundable credits, the IRS plans to
were required to repay more than an estimated           develop pre-refund examination filters to ensure
$2.3 billion in erroneous credits. By the end of        historical information is available and used as
December 2011, the IRS had recovered an                 selection criteria. Although this planned action
estimated $1.3 billion, of which more than              is different than what TIGTA recommended,
70 percent was collected through refund offsets.        TIGTA believes that it is a viable alternative.
TIGTA found that taxpayers repeatedly claimed
erroneous Additional Child Tax Credits (ACTC)
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 7, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Expansion of Controls Over Refundable Credits
                             Could Help Reduce the Billions of Dollars of Improperly Paid Claims
                             (Audit # 201140045)

 This report presents the results of our review to determine the effectiveness of the Internal
 Revenue Service’s (IRS) efforts to recover refundable credits disallowed during post-refund
 examinations and consider options the IRS could implement to decrease the issuance of
 erroneous refundable credits in the future. This audit is included in our Fiscal Year 2012 Annual
 Audit Plan and addresses the major management challenge of Fraudulent Claims and Improper
 Payments.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (770) 617-6434.
                          Expansion of Controls Over Refundable Credits Could Help
                           Reduce the Billions of Dollars of Improperly Paid Claims




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Many Erroneous Refundable Credits Are Never Recovered ........................ Page 3
          Additional Controls Could Prevent Unscrupulous Individuals
          From Repeatedly Claiming Erroneous Refundable Credits.......................... Page 7
                    Recommendations 1 through 3:......................................... Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measures............................................................... Page 19
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
        Expansion of Controls Over Refundable Credits Could Help
         Reduce the Billions of Dollars of Improperly Paid Claims




                     Abbreviations

ACTC           Additional Child Tax Credit
EITC           Earned Income Tax Credit
IRS            Internal Revenue Service
TIGTA          Treasury Inspector General for Tax Administration
                      Expansion of Controls Over Refundable Credits Could Help
                       Reduce the Billions of Dollars of Improperly Paid Claims




                                           Background

Refundable credits, unlike other tax credits, not only have the potential to reduce a taxpayer’s tax
liability to zero, but also allow the taxpayer to receive a cash payment of any remaining credit
amount. In recent years, the number of refundable credits available to taxpayers has grown.
Two refundable credits, the Earned Income Tax Credit (EITC) and the Additional Child Tax
Credit (ACTC), are designed to help working and low-income families. Some refundable credits
such as the First-Time Homebuyer Credit, the American Opportunity Tax Credit, and the
Adoption Credit have been offered temporarily1 to provide incentives for specific activities, such
as buying a home, obtaining a college education, and adopting a child.
Refundable tax credits can be a significant tax incentive due to their ability to increase taxpayers’
refunds. However, these credits can result in a payment to individuals from the Government
even if no taxes were withheld or paid, which makes refundable tax credits more susceptible to
fraud. Without proper controls, billions of taxpayer dollars are vulnerable to erroneous claims
and fraudulent tax schemes.
Due to their increased susceptibility to fraud and
improper payments, refundable credits have received            The IRS estimates that, since
                                                                 Fiscal Year 2003, between
increased oversight. The reduction of improper                  $99 billion and $119 billion
payments is a priority of the President and Congress.              in EITC payments have
The Treasury Inspector General for Tax Administration               been improperly paid.
(TIGTA) and the Government Accountability Office
have issued a number of reports that have addressed the
Internal Revenue Service’s (IRS) ability to administer these credits. The IRS estimates that it
has paid between $99 billion and $119 billion in improper EITC payments alone from Fiscal
Years2 2003 through 2011.3 It does not have estimates for the other refundable credits.
Both the TIGTA and the Government Accountability Office have recommended the increased
use of preventive controls, stressing the importance of identifying questionable refundable
credits prior to the issuance of the refund. Erroneous credits discovered after refunds are
released may require more costly enforcement actions, and the likelihood of collection
diminishes over time.


1
  Either the credit was temporary or it was only refundable temporarily.
2
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
3
  Source: Department of the Treasury Performance and Accountability Reports for Fiscal Years 2003 through 2010
and the Fiscal Year 2011 Agency Financial Report.
                                                                                                       Page 1
                      Expansion of Controls Over Refundable Credits Could Help
                       Reduce the Billions of Dollars of Improperly Paid Claims



The IRS recognizes the need to prevent erroneous refundable credits from being refunded and
has implemented controls in an attempt to identify questionable claims before the refunds are
issued. Examination filters have been implemented to identify potentially erroneous claims for
review. For certain credits, the IRS has required supporting documentation to be attached to the
tax return to verify eligibility. In some cases, by law, the IRS has been granted permission to
deny the claim up front if the required supporting documentation is not received. Through the
Modernized E-File system, the IRS is now able to accept portable document format attachments
of supporting documentation. If the tax preparation software used by the taxpayer or his or her
tax preparer does not include that functionality, tax returns must be filed on paper.
This review focused on the collectability of erroneous refundable credits once they have been
refunded to the taxpayer but subsequently disallowed by either the IRS’s Examination function
or Criminal Investigation. We performed our analysis by “tax module,” which is the portion of a
taxpayer’s account that relates to a specific tax return (e.g., transactions and other information
related to a taxpayer’s Form 1040, U.S. Individual Income Tax Return, for Tax Year4 2009 would
be posted to a tax module created for that tax return).5 We identified 340 million taxpayer
modules with refundable credits claimed totaling about $470 billion during Tax Years 2006
through 2009. Only 4.6 million modules (1 percent) underwent some type of direct IRS scrutiny.
Because the IRS conducts a limited number of examinations each year, many additional
questionable credits were allowed with no IRS scrutiny. The scope of our audit covered
erroneous credits identified and disallowed by the IRS after the related refunds were issued.
This review was performed onsite at the IRS Campus6 in Ogden, Utah, during the period
August 2011 through February 2012. It included analysis of tax data located on the TIGTA
Data Center Warehouse,7 a review of taxpayer account data contained on the IRS Individual
Master File,8 and discussions and analysis of information provided by the IRS Small Business/
Self-Employed Division and the Wage and Investment Division. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

4
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
5
  The IRS defines tax module as that part of a taxpayer’s account consisting of one tax class and one tax period.
6
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
7
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
8
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                           Page 2
                       Expansion of Controls Over Refundable Credits Could Help
                        Reduce the Billions of Dollars of Improperly Paid Claims




                                       Results of Review

Many Erroneous Refundable Credits Are Never Recovered
In addition to the controls that the IRS has in place to identify and stop certain erroneous
refundable credits before refunds are released, it performs reviews of tax returns after refunds are
released to identify additional erroneous claims. However, a significant percentage of the credits
disallowed after refunds are issued are never recovered, and much of what is recovered comes
from refund offsets rather than payments made by taxpayers. Refund offsets are funds
transferred from another tax module for which the taxpayer is owed a refund.9
We identified 1,308,540 tax modules (Tax Years 2006 through 2009) that appeared to have
claims for refundable credits that were disallowed after refunds had been issued on the modules.
We limited our scope to refundable credits that were disallowed by December 31, 2010, to
ensure taxpayers had been given at least one year to repay the credits by the time we analyzed
the modules at the end of Calendar Year 2011. From this population, we selected a statistically
valid sample of 385 modules to determine how successful the IRS was in recovering these
disallowed credits and ultimately reviewed 26710 cases with post-refund disallowed refundable
credits. We analyzed the modules to determine which credits were disallowed, how much was
collected, what kind of payments were made, and how quickly the credits were repaid. The
refundable credits sampled were:
        62 percent ACTC.
        35 percent EITC.11
        1 percent First-Time Homebuyer Credit.
        1 percent American Opportunity Tax Credit.

9
  Generally, before the IRS issues a refund, its computer system analyzes a taxpayer’s entire account to ensure there
are no modules for which the taxpayer has a balance due. If it finds a balance due, it automatically applies funds
that would have otherwise been refunded to that balance due.
10
   From our original sample of 385, we found that credits on 111 modules were disallowed due to a pre-refund IRS
examination but were included in our data because the disallowance of the credit was posted after the refund had
been issued. We did not include these cases because the refund did not include the disallowed credit, and the
taxpayer was not required to repay anything. In addition, we did not include the Making Work Pay Credit or the
Recovery Rebate Credit in our sample because these credits were generally allowed to the population at large,
without the need for significant scrutiny by the IRS. Seven modules in our sample of 385 contained only these
credits.
11
   During Fiscal Years 2007 through 2009, the IRS performed more than twice as many post-refund examinations
for the ACTC (774,291) than it performed on the EITC (347,777).
                                                                                                             Page 3
                       Expansion of Controls Over Refundable Credits Could Help
                        Reduce the Billions of Dollars of Improperly Paid Claims



        1 percent Telephone Excise Tax Refund.12
The total of the refundable credits disallowed on the 267 modules was $679,690. The balance
owed due to the disallowed credits had been fully satisfied on 145 modules (54 percent) and had
been partially satisfied on 74 modules (28 percent). The remaining 48 modules (18 percent)
showed no collection activity at all. The total amount of refundable credits collected on these
267 modules as of December 31, 2011, was $390,051 (57 percent of the disallowed amounts).
Applying the results of our analysis to the 1,308,540 tax modules (Tax Years 2006 through
2009) in our population, we estimate 907,480 modules had refundable credits13 totaling more
than $2.3 billion that were disallowed after having been refunded to taxpayers. As of the end of
Calendar Year 2011, we estimate the IRS collected approximately $1.3 billion (57 percent) of
this $2.3 billion, leaving more than $984 million (43 percent) uncollected.
Because payments are applied to the tax module as a whole, it is not feasible to determine a
collection rate for each specific credit. However, in our analysis we applied all payments to the
disallowed refundable credits first unless the payment was specifically designated for something
else, such as interest or penalties. The IRS may continue to collect on these tax modules;
however, the probability of collection will continue to decrease with time. The 267 tax modules
had refundable credits disallowed between January 2007 and December 2010. Therefore, we
had up to five years of collection data for credits reversed in Calendar Year 2007, four years of
data for credits reversed in Calendar Year 2008, and so on.14
Assuming each credit follows a similar collectability pattern, we applied collection rates from the
older tax modules to the modules for which we had only a few years worth of repayment data.
Based on this application, we estimate the IRS could collect an additional $155 million, making
an overall collection rate of 64 percent (leaving $829 million uncollected). This assumes that the
IRS could even collect on modules that had no payment activity as of December 2011 despite the




12
   The refundable Adoption Credit was not included in our sample because it was not available to taxpayers until
Tax Year 2010, which was outside the scope of this audit. In addition, because some refundable credits were
claimed by a small number of taxpayers, not all credits were represented in our sample (e.g., the Health Coverage
Tax Credit, the Fuel Tax Credit, and the Credit for Prior Year Minimum Tax).
13
   Excluding Making Work Pay and Recovery Rebate Credits.
14
   These 267 modules consisted of 25 (9 percent) with credits disallowed in 2007, 59 (22 percent) with credits
disallowed in 2008, 84 (31 percent) with credits disallowed in 2009, and 99 (37 percent) with credits disallowed in
2010 (percentages do not total to 100 percent due to rounding).
                                                                                                             Page 4
                       Expansion of Controls Over Refundable Credits Could Help
                        Reduce the Billions of Dollars of Improperly Paid Claims



fact that more than 52 percent of the modules with no collection activity were at least two years
old.15

Erroneous credits are primarily recovered through refund offsets
Although the IRS recovered approximately 57 percent of the erroneous credits refunded in our
sample, only 21 percent of the amounts collected came through payments received directly from
taxpayers. The majority of the recovered amounts came from refund offsets.
Refund offsets do not reflect an effort made by taxpayers to repay their tax debts. Collection
occurs only if taxpayers are due subsequent refunds. If taxpayers are later found to be ineligible
for credits that were included in refunds that were offset, the collection situation can be
compounded with additional delinquencies.
Of the total $390,051 the IRS recovered from the 267 tax modules with refunded credits, only
$80,895 (21 percent) came from payments made by taxpayers. As shown in Figure 1, we found
$274,429 (70 percent) came from refund offsets, $20,360 (5 percent) resulted from the abatement
of part of the taxes reported on the module, and the other $14,367 (4 percent) came from
adjustments stemming from additional withholding or refundable credits later claimed on
amended returns.
                                     Figure 1: Types of Repayment

                       Withholding & Other
                        Refundable Credits             Payments
                               4%                        21%
                       Abatements                                              Refund 
                           5%                                                  Offsets
                                                                                70%




                    Source: TIGTA analysis of 267 taxpayer modules.



15
  We validated our calculations by applying collection probability rates from studies conducted by the IRS and the
Commercial Law League of America. The collection rates in our sample appear to follow the same collectability
pattern presented in these studies, with collection declining rapidly after the first year, and virtually no collection
activity after three years. According to these collectability studies, debts become practically uncollectable after
three years, but the IRS could potentially collect 25 percent of debts more than a year old and 13 percent of debts
more than two years old.
                                                                                                                Page 5
                    Expansion of Controls Over Refundable Credits Could Help
                     Reduce the Billions of Dollars of Improperly Paid Claims



Collection rates are significantly affected by and dependent on refund offsets. Without refund
offsets, currently, only 17 percent of the $2.3 billion dollars analyzed would have been collected.
See Figure 2 for a graph of collection rates based on our samples.
                      Figure 2: Collection Rates Based on Samples




         Source: TIGTA analysis of 267 taxpayer modules.

Inappropriate claims for refundable credits are often repaid with refunds from
subsequent claims for the same refundable credits
Of the 267 modules analyzed, disallowed refundable credits were either partially or fully repaid
in 219 modules. Analyzing the amounts recovered on the 219 modules where any repayments of
the erroneous refund amounts had occurred, we found the following refund offsets were applied
to 168 (77 percent) of the 219 modules.
      For 112 (67 percent) of 168 modules, the refund offset was the only amount recorded.
      For 71 (42 percent) of 168 modules, the same refundable credits disallowed on the
       modules in question were claimed on a subsequent tax return, and the resulting refunds
       were used to pay back the disallowed credits.




                                                                                            Page 6
                         Expansion of Controls Over Refundable Credits Could Help
                          Reduce the Billions of Dollars of Improperly Paid Claims



Erroneous refundable credits remain uncollected for years
On average, it took the IRS almost one year (49 weeks) from the time the original refund was
issued to review and disallow the erroneous refundable credit. It took an additional 27 weeks
(76 weeks from the date of the original refund), on average, for any type of payment to be made.
Most collections on the delinquent modules come as refund offsets. These are applied at the
time a subsequent tax refund is generated, which is generally during the first or second quarter of
the subsequent calendar year. Therefore, if the taxpayer does not consistently make payments, or
fails to make any payments at all, the IRS must wait for the yearly tax season to collect any
money, and a collection would be made only if the taxpayer is eligible for a refund.
For the 145 ‘full paid’ modules, it took on average 10 months (44 weeks) from the time the
credit was disallowed until it was fully repaid – or one year and nine months elapsed from the
time the credit was originally released to the time the erroneous credit was fully repaid. Because
of the susceptibility of these credits to fraud, and the low success rates in recovering erroneous
credits once refunds have been issued, the IRS should take every reasonable step possible to
identify potentially questionable credits and validate those credits before associated refunds are
issued.

Additional Controls Could Prevent Unscrupulous Individuals From
Repeatedly Claiming Erroneous Refundable Credits
Taxpayers who claim erroneous refundable credits often claim the same or other refundable
credits in subsequent years. When the IRS examines these subsequent claims, it most often
disallows them. However, it examines less than one-half of these subsequent claims.
From the 267 taxpayer modules with post-refund disallowance of refundable credits,
106 taxpayers claimed a refundable credit the next year – 86 claimed the same credit that had
been disallowed. The IRS examined only 41 of the 106 modules with claimed refundable
credits, and examined less than one-half (34 of 86) of the modules in which taxpayers claimed
the exact same credits in the following year.16
Of the 41 IRS examinations where taxpayers took any refundable credit in the following year,
37 (90 percent) resulted in disallowance of the subsequent credit or credits claimed. When the
subsequently claimed credit was the same credit that was disallowed, 91 percent (31 of 34) were
disallowed based on the subsequent examination.
We found similar results when reviewing disallowed credits that were being repaid by refund
offsets resulting from the same credits claimed in subsequent years (but which may or may
not have been claimed the very next year). Of 71 such cases, the IRS did not examine


16
     In six of the 34 cases, the IRS examined only one of two refundable credits that were previously claimed.
                                                                                                                 Page 7
                      Expansion of Controls Over Refundable Credits Could Help
                       Reduce the Billions of Dollars of Improperly Paid Claims



62 (87 percent) of the subsequently claimed credits. However, it disallowed eight (89 percent) of
the nine subsequently claimed credits that it did examine.
*******************************2(f)****************************************
**********************************2(f)*****************. According to the IRS, most
refundable credits are available only for a limited time ****************2(f)*************
****************************2(f)***********************. In addition, the IRS stated
that the eligibility requirements for credits may change from year to year and, therefore, a
subsequent claim of the same credit may not necessarily be questionable. However, examination
results indicate that taxpayers who are not compliant with one refundable credit are often
noncompliant with other refundable credits, regardless of the credits’ eligibility requirements or
the length of time the credits are available.

Certain recurring credits, such as the ACTC, warrant additional pre-refund
scrutiny
When a refundable credit is designed to be available for multiple tax years and eligibility
requirements are substantially the same for each year, increased audit consideration may be
warranted for taxpayers who make ineligible claims one year and subsequently claim the same
credit the following year. Credits such as the EITC, the ACTC, the American Opportunity Tax
Credit, the Fuel Tax Credit, and the Health Coverage Tax Credit are available for multiple years
and the Federal Government could benefit from controls to identify taxpayers who repeatedly
file erroneous claims for these credits.
The IRS has developed several controls in an attempt to address repeated erroneous claims for
the EITC. It may ban a taxpayer from receiving the EITC for up to 10 years if that taxpayer
knowingly, recklessly, or fraudulently claimed the credit. An indicator is placed on the account
to prevent the taxpayer from receiving the EITC if the credit is claimed while the ban is in effect.
In order to claim the EITC in later years, the taxpayer must certify eligibility by submitting
Form 8862, Information To Claim Earned Income Credit After Disallowance.
The ACTC is a refundable credit that generally maintains the same eligibility requirements and is
available for multiple years. However, the IRS does not have similar controls in place to track
taxpayers who repeatedly make ineligible ACTC claims.
From the 267 modules with post-refund disallowed credits, 228 taxpayers were disallowed the
ACTC. Of these, 60 taxpayers (26 percent) claimed the ACTC the next year. Only
21 (35 percent) of the 60 ACTC claims were examined by the IRS, the majority of which were
selected because of a questionable EITC claim.17 We reviewed the 21 returns for which the IRS
chose to review the ACTC in conjunction with another tax issue and found all 21 ACTC claims

17
  Fourteen cases were selected because the return met EITC examination criteria. The other seven were selected for
various other reasons (such as items found on Schedules A and C), none of which specifically identified the ACTC
as the cause of the examination.
                                                                                                          Page 8
                        Expansion of Controls Over Refundable Credits Could Help
                         Reduce the Billions of Dollars of Improperly Paid Claims



were disallowed or reduced.18 All but two were initially refunded to the taxpayer and
subsequently disallowed, therefore, requiring repayment of the credit through the collection
process.
The remaining 39 (65 percent) of 60 repeat ACTC credits were not examined *****2(f)******
***************************************2(f)**********************************
**************************************2(f)************************************
***2(f)***. From these 39 cases, we found five for which the IRS examined and disallowed an
EITC claim because the taxpayer could not establish eligibility for a qualifying child. However,
the IRS did not examine the ACTC claim on the same return, even though the absence of a
qualifying child may indicate the taxpayer was also ineligible for the ACTC.
The total ACTC subsequently claimed by the 60 taxpayers in our sample was $63,171. The total
ACTC for the 21 examined cases was $26,267, of which $22,779 (87 percent) was disallowed.
Based on these results, we estimate more than $125 million of potentially erroneous claims for
the ACTC were refunded without adequate scrutiny during Tax Years 2006 through 2009, of
which more than $108 million were improper.

Techniques used to apply pre-refund freezes to the EITC could be expanded
One method the IRS uses to limit erroneous EITC claims involves freezing the EITC portion of
the refunds until taxpayers’ qualifications for the EITC can be verified. For example, if a
taxpayer is due a $1,200 refund based on his or her individual income tax return, $1,000 of
which is the EITC, the IRS would send him or her $200 and freeze the $1,000 EITC. The IRS
would then review the EITC to determine if the taxpayer is eligible. If the IRS confirms the
taxpayer is eligible for the EITC, the IRS sends the taxpayer the remaining $1,000. This method
has also been used on other refundable credits, such as the First-Time Homebuyer Credit and the
Adoption Credit.
The disadvantage to freezing credits to provide time to determine their validity is that refunds
associated with credits legitimately claimed by taxpayers can be delayed. The IRS has
undergone criticism for delaying refunds. However, refundable credits generally represent
payments from the Federal Government, rather than the return of overwithheld or overpaid taxes.
As such, the recipients of these payments should undergo the same scrutiny and verification as
recipients of Federal benefits paid outside the tax system.
The IRS does not freeze the EITC that every taxpayer claims, only those that meet certain
criteria identified when tax returns are filed. As shown in Figure 3, in Tax Years 2006 through
2009, the IRS froze EITC claims totaling $3,651,155,911, of which $3,222,186,516, or
88 percent, were ultimately determined to be erroneous and were disallowed.



18
     Eighteen ACTC claims were fully reversed and three were reduced in amount.
                                                                                           Page 9
                   Expansion of Controls Over Refundable Credits Could Help
                    Reduce the Billions of Dollars of Improperly Paid Claims



                    Figure 3: $3,651,155,911 in Frozen EITC Claims
                             Tax Years 2006 Through 2009




                       Source: The TIGTA’s Data Center Warehouse and SAS queries.

We identified 680,068 tax returns from Tax Years 2006 through 2009 that had a freeze on the
refunds and claims for at least two refundable credits. We took a statistically valid sample of
384 tax returns to determine if the process used to freeze the EITC could be expanded to any
other refundable credits. Utilizing information from IRS computer systems, we determined that
365 of the returns in our sample had a frozen EITC, and 332 of the returns had a frozen EITC
and an ACTC claim. In 221 (67 percent) of the cases, the frozen EITC was disallowed while the
ACTC was initially allowed and sent to the taxpayer, then later disallowed. In these cases, the
IRS had to attempt to recover the amounts it already sent to the taxpayers for the erroneous
ACTC claims. Based on our sample, we determined that for Tax Years 2006 through 2009, had
the IRS frozen and verified the ACTC each time it did so for the EITC, it could have saved
approximately $419 million in erroneous ACTC claims from being refunded to taxpayers.

Expanding the due diligence requirements to the ACTC could reduce erroneous
claims for the ACTC
The eligibility rules for refundable credits can be complex and taxpayers often use the services of
paid preparers when filing their tax returns. In our analysis, 207 (78 percent) of the 267 modules
with disallowed refundable credits were for tax returns prepared by paid preparers.
The IRS stated in May 2011 that more than 60 percent of EITC returns are prepared by paid
preparers. Paid preparers who file EITC returns are required to complete Form 8867, Paid
Preparer’s Earned Income Credit Checklist, detailing the due diligence they performed while
preparing EITC claims. The checklist aids preparers in validating that the taxpayer for whom the
return is prepared does qualify for the EITC. Beginning with Tax Year 2011, preparers can be
penalized up to $500 if this checklist is not attached to a return.
Erroneous ACTC claims are often found in conjunction with erroneous EITC claims. According
to the IRS, 65 percent of examined EITC returns affect the ACTC. The EITC and ACTC contain

                                                                                           Page 10
                         Expansion of Controls Over Refundable Credits Could Help
                          Reduce the Billions of Dollars of Improperly Paid Claims



similar eligibility requirements. For example, each credit has income limits, and each credit
typically involves a qualifying child (the EITC can be claimed without any qualifying children,
albeit for a limited amount). Given the strong correlation between the ACTC and EITC, and that
the two credits are often claimed together, it would be beneficial if legislation were passed to
expand the due diligence requirements and penalties to include the ACTC.

Increased documentation for refundable credits should be required of
noncompliant taxpayers
Requiring documentation to support a claim for credits has often been an effective control for the
IRS. However, the IRS has been reluctant to utilize this control method because it believes it is
burdensome to tax administration and taxpayers, precludes taxpayers from filing electronically,
and requires math error authority to administer properly.
A recent example is the First-Time Homebuyer Credit. Because of the vulnerability of this credit
to fraud, the TIGTA recommended that the IRS require taxpayers to attach documentation to
their tax returns to substantiate a home purchase and verify eligibility for the credit. IRS
management initially responded that a requirement to supply documentation during the
processing of the tax return would be burdensome for both the taxpayer and the IRS. Even if the
recommended documentation was not provided, the
IRS did not have math error authority to disallow the
                                                              The current annual estimate of
credit during processing. The IRS also noted that             the improper payments for the
requiring documentation would preclude many                    EITC alone is greater than the
taxpayers from electronic filing.                                 entire budget of the IRS.

Because improper claims associated with this credit
proved to be significant, Congress passed legislation requiring documentation to substantiate this
credit and providing the IRS with math error authority to disallow the credit if documentation
was not provided. Subsequent to the implementation of these controls, the erroneous claims
identified by the IRS declined dramatically. For claims processed prior to the documentation
requirements (Processing Year19 2009), the IRS’s pre-refund audits of these claims resulted in a
disallowance rate of 75 percent. However, after the documentation requirements were
implemented, this disallowance rate fell to 17.5 percent and for most of the subsequent
processing year remained below 13 percent.
Although a requirement to provide documentation for every refundable credit claimed would
increase burden on taxpayers and increase IRS’s administrative costs, requiring no
documentation increases the chances of fraud and is not commensurate with the requirements of
other Federal Government programs. The current annual estimate of the improper payments for
the EITC alone is greater than the entire budget of the IRS.


19
     The calendar year in which the tax return or document is processed by the IRS.
                                                                                          Page 11
                   Expansion of Controls Over Refundable Credits Could Help
                    Reduce the Billions of Dollars of Improperly Paid Claims



At a minimum, the IRS should require documentation from taxpayers or tax preparers who have
in the past abused refundable credits. For example, to help address compliance problems with
the EITC, Congress passed legislation requiring taxpayers who had the EITC denied during
examinations to prove eligibility before receiving the EITC again. The accounts of these
taxpayers are notated with a specific indicator to identify them as being required to prove their
eligibility. We believe similar controls should be explored for taxpayers who abuse any
refundable credits.

Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 1: Implement an account indicator to identify taxpayers who claim
erroneous refundable credits. Taxpayers with such an indicator should be required to provide
documentation before their claims for refundable credits are processed and should be considered
for pre-refund examinations of claims for all refundable credits. Such an indicator should apply
for a specified time period.
       Management’s Response: IRS management agreed that a taxpayer’s prior history of
       claiming erroneous refundable credits should be a factor in considering whether to issue a
       refund for the current year. Rather than utilizing an account indicator, the IRS will
       develop pre-refund examination filters to ensure historical data are available and used as
       a selection criteria. It is the IRS’s intent to implement such filters for the upcoming filing
       season.
       Office of Audit Comment: The IRS’s planned action is different than what the
       TIGTA recommended but we believe their planned action is a viable alternative.
Recommendation 2: Freeze and verify claims for the ACTC on all returns for which the
EITC is frozen.
       Management’s Response: IRS management agreed that freezing the ACTC along
       with the EITC on tax returns selected for pre-refund examination may prevent the
       payment of claims that may subsequently be found to be improper. The IRS is exploring
       options in this area.

Legislative Recommendation
Recommendation 3: The Deputy Commissioner for Services and Enforcement should work
with the Department of the Treasury’s Office of Tax Policy to seek legislation to expand the
EITC due diligence requirements and penalties to include the ACTC.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will work with the Department of the Treasury’s Office of Tax Policy regarding the

                                                                                            Page 12
           Expansion of Controls Over Refundable Credits Could Help
            Reduce the Billions of Dollars of Improperly Paid Claims



potential need for legislation to expand the EITC due diligence requirements and
penalties to include the ACTC.




                                                                                   Page 13
                      Expansion of Controls Over Refundable Credits Could Help
                       Reduce the Billions of Dollars of Improperly Paid Claims



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine the effectiveness of IRS’s efforts to recover
refundable credits disallowed during post-refund examinations and consider options the IRS
could implement to decrease the issuance of erroneous refundable credits in the future. To
accomplish this objective, we:
I.      Determined the effectiveness of the IRS’s efforts to recover refunds issued for erroneous
        claims for refundable credits.
        A. Computer identified erroneous claims for refundable credits that were disallowed
           after refunds were issued and reassessed to the taxpayer using a Data Center
           Warehouse extract of the IRS Individual Master File1 for Tax Years2 2006 through
           2009. We compared the disallowed credit amount to the amount recovered over time.
           We ensured the validity and reliability of the data by comparing the first 50 records of
           our extract to tax information on the Integrated Data Retrieval System.3
             1. Determined the number and amount of refundable credits issued.
             2. Determined the number and amount of claims reversed due to IRS examinations.
             3. Determined the number of claims reversed where no refund amount was
                recaptured. Overall, we computed the amount and percentage of erroneous
                refunds recovered.
                 a. Computer identified 1,308,540 tax modules with refundable credits that were
                    disallowed after refunds were issued between January 1, 2007, and
                    December 31, 2010. Each of these modules had refundable credits disallowed




1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
3
  The IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 14
                      Expansion of Controls Over Refundable Credits Could Help
                       Reduce the Billions of Dollars of Improperly Paid Claims



                      by either the IRS’s Examination function or Criminal Investigation. From this
                      population, we analyzed a statistically valid sample of 385 modules.4
        B. Analyzed the type of repayments (payments, offsets, or abatements) and identified
           any instances where taxpayers may have repeatedly claimed erroneous credits and
           repaid prior examination assessments using those credits.
        C. Identified any applicable demographic trends in which refundable credits are
           erroneously claimed and not recovered, i.e., paid preparers.
II.     Determined what controls are available and/or used by the IRS to identify and disallow
        erroneous refundable credits and determined whether new controls should be
        implemented to reduce erroneous claims.
        A. Identified various refundable credits available to taxpayers over the last five years and
           any applicable legislative requirements requiring the taxpayer to prove eligibility.
        B. Reviewed documented IRS procedures (Internal Revenue Manual, desk procedures,
           Functional Specification Packages, etc.) designed to identify and stop questionable
           refundable credits before the refund is released.
        C. Identified any documentation required of the taxpayer to prove eligibility for each
           credit and determined whether the IRS has math error authority to disallow any of the
           credits if proper documentation is not provided. Also, we determined the status of the
           IRS’s ability to accept additional documentation on electronic returns.
        D. Studied previous TIGTA reports on refundable credits and determined whether
           documentation was required to prove eligibility and whether the IRS utilized math
           error authority for claims without supporting documentation.
        E. Determined whether the IRS freezes only the applicable questionable credit and
           releases the remaining refund.
             1. Computer identified 680,068 modules from the IRS Master File5 that had an
                examination freeze and at least two claimed refundable credits during Tax
                Years 2006 through 2009. From this population, we analyzed a statistically valid

4
  The statistical sample size was selected by using a 95 percent confidence level, a ±5 percent precision, and a
50 percent expected error rate. From our original sample of 385, we found that credits on 111 modules were
disallowed due to a pre-refund IRS examination but were included in our data because the disallowance of the credit
was posted after the refund had been issued. We did not include these cases because the refund did not include the
disallowed credit, and the taxpayer was not required to repay anything. In addition, we did not include the Making
Work Pay Credit or the Recovery Rebate Credit in our sample because these credits were generally allowed to the
population at large, without the need for significant scrutiny by the IRS. Seven modules in our sample of 385
contained only these credits.
5
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 15
                       Expansion of Controls Over Refundable Credits Could Help
                        Reduce the Billions of Dollars of Improperly Paid Claims



                  sample of 384 modules.6 The population was validated for accuracy and
                  reliability by comparing the statistically valid sample to tax information on the
                  Integrated Data Retrieval System.
         F. Evaluated controls in place to track known unscrupulous taxpayers, such as the EITC
            indicator on taxpayer accounts banned from taking the credit, and determined whether
            a similar approach might be utilized for other refundable credits.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS Examination and Collection
functions’ policies, procedures, and practices for identifying, examining, and collecting on
accounts with potentially erroneous refundable credit claims. We evaluated these controls by
interviewing IRS management, reviewing documentation, and analyzing IRS data for taxpayers
who claimed erroneous refundable credits.




6
 The statistical sample size was selected by using a 95 percent confidence level, a ±5 percent precision, and a
50 percent expected error rate.
                                                                                                            Page 16
                  Expansion of Controls Over Refundable Credits Could Help
                   Reduce the Billions of Dollars of Improperly Paid Claims



                                                                              Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Bill R. Russell, Audit Manager
Laura Paulsen, Lead Auditor
Patricia A. Jackson, Senior Auditor
Levi J. Dickson, Auditor
Lance J. Welling, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                     Page 17
                 Expansion of Controls Over Refundable Credits Could Help
                  Reduce the Billions of Dollars of Improperly Paid Claims



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection-Field, Small Business/Self-Employed Division SE:S:C
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Return Integrity and Correspondence Services SE:W:RICS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Commissioner, Small Business/Self-Employed Division SE:S
    Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Assistant Secretary of the Treasury for Tax Policy




                                                                                Page 18
                       Expansion of Controls Over Refundable Credits Could Help
                        Reduce the Billions of Dollars of Improperly Paid Claims



                                                                                               Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Funds Put to Better Use – Potential; $108,768,565 in questionable ACTC claims issued
    during Tax Years1 2006 through 2009 (see page 8).

Methodology Used to Measure the Reported Benefit:
We obtained from the IRS Individual Master File2 a computer extract of 1,308,540 tax modules
(Tax Years 2006 through 2009) with refundable credits that were disallowed post-refund
between January 1, 2007, and December 31, 2010. Each of these modules had refundable credits
disallowed by either the IRS’s Examination function or Criminal Investigation. We reviewed a
statistically valid sample of 385 of the modules to determine which refundable credits were
disallowed after the issuance of the refund and also determine which taxpayers claimed the same
refundable credits the year following the disallowance.
Of the 385 modules, we found 60 taxpayers with a disallowed ACTC in one year who claimed
the ACTC the very next year. The IRS reviewed 21 of these taxpayer claims but released the
other 39 without any scrutiny. The IRS disallowed or reduced in amount all 21 examined ACTC
claims.
The total of the ACTC subsequently claimed by the 60 taxpayers in our sample was $63,171.
The total ACTC for the 21 examined cases was $26,267, of which $22,779 (86.7210 percent)
was disallowed.
We determined the 39 claims that received no IRS scrutiny totaled $36,904 and divided by the
sample size of 385, resulting in a sample average of $95.85. By multiplying $95.85 by the
population of 1,308,540, we projected the IRS released $125,423,5593 in potentially erroneous
ACTC claims during Tax Years 2006 through 2009. We multiplied the .867210 disallowance


1
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  Our projection is based on a 95 percent confidence level and a precision (range) of ± $42,133,788 ($83,289,771-
$167,557,347).
                                                                                                          Page 19
                      Expansion of Controls Over Refundable Credits Could Help
                       Reduce the Billions of Dollars of Improperly Paid Claims



rate of the 21 examined claims by the $125,423,559 and estimated that $108,768,5654 of ACTC
claims were likely erroneous but released without scrutiny.

Type and Value of Outcome Measure:
   Funds Put to Better Use – Potential; $418,969,493 in erroneous ACTC claims that could have
    been saved on tax modules with a frozen EITC if the ACTC had also been frozen
    (see page 8).

Methodology Used to Measure the Reported Benefit:
Our review identified $418,969,493 in erroneous ACTC claims that the IRS paid out. These
erroneous claims were on tax modules for Tax Years 2006 through 2009 that had a frozen EITC
claim that was ultimately disallowed. If the ACTC had been frozen as well, these funds would
not have gone out and the IRS would not be responsible for trying to recapture the erroneous
ACTC claims.
To identify the $418,969,493, we reviewed a statistical sample of 384 taxpayer modules, drawn
from a population of 680,068. The population consisted of modules that had a frozen refund
indicator and at least two refundable credits claimed. We found that in 332 (86.46 percent) of
the 384 cases, the modules had a frozen EITC and an ACTC claim. In 221 (66.57 percent) of the
332 cases, the EITC was frozen and ultimately disallowed and the ACTC was initially allowed
and sent to the taxpayer, only to be subsequently disallowed. In these cases, the IRS had to
attempt to recapture the amounts it already sent to the taxpayers for the erroneous ACTC claims.
We determined the 221 erroneous ACTC claims in our sample totaled $236,570.14, divided by
the sample size of 384, resulting in a sample average of $616.07. By multiplying $616.07 by the
population of 680,068, we projected that the IRS could have saved $418,969,4935 had the ACTC
been frozen along with the EITC.




4
  Our projection is based on a 95 percent confidence level and a precision (range) of ± $36,538,842 ($72,229,723-
$145,307,407).
5
  Our projection is based on a 95 percent confidence level and a precision (range) of ± $36,688,787 ($382,280,706-
$455,658,280).
                                                                                                          Page 20
     Expansion of Controls Over Refundable Credits Could Help
      Reduce the Billions of Dollars of Improperly Paid Claims



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 21
Expansion of Controls Over Refundable Credits Could Help
 Reduce the Billions of Dollars of Improperly Paid Claims




                                                      Page 22
Expansion of Controls Over Refundable Credits Could Help
 Reduce the Billions of Dollars of Improperly Paid Claims




                                                      Page 23
Expansion of Controls Over Refundable Credits Could Help
 Reduce the Billions of Dollars of Improperly Paid Claims




                                                      Page 24
